Neutral
As of: January 20, 2021 1:35 AM Z

State v. Bryant
Court of Appeal of Louisiana, Second Circuit
June 26, 2019, Judgment Rendered
No. 52,743-KA
Reporter
277 So. 3d 874 *; 2019 La. App. LEXIS 1163 **; 52,743-KA (La.App. 2 Cir. 06/26/19);; 2019 WL 2608468

STATE OF LOUISIANA, Appellee versus JOSEPH M.
BRYANT, Appellant

Subsequent History: Writ denied by State v. Bryant,
280 So. 3d 171, 2019 La. LEXIS 2476 (La., Oct. 8,
2019)
Decision reached on appeal by State v. Bryant, 2020
La. App. LEXIS 361 (La.App. 2 Cir., Mar. 4, 2020)

Prior History: [**1] Appealed from the First Judicial
District Court for the Parish of Caddo, Louisiana. Trial
Court No. 327055. Honorable Brady D. O'Callaghan,
Judge.

Disposition: CONVICTIONS
AFFIRMED;
ADJUDICATION
AND
SENTENCE
VACATED;
REMANDED FOR FURTHER PROCEEDINGS.

Case Summary
Overview
HOLDINGS: [1]-The trial court did not abuse its
discretion in finding that defendant was competent to
proceed to trial because the trial court went through
painstaking efforts to ensure defendant was afforded his
constitutional rights in regard to his competency to stand
trial for the offenses. In fact, the concern and level of
understanding by the trial judge stood out in the record;
[2]-Defendant was erroneously adjudicated a thirdfelony offender because, while the two predicate
offenses occurred on different dates, the convictions for
both offenses were obtained on the same date prior to
October 19, 2004, and La. Rev. Stat. Ann. § 15:529.1(B)
and the Louisiana Supreme Court clarified that because
the convictions were obtained prior to October 19, 2004,
the convictions were considered one conviction for
purposes of the habitual offender adjudication.

Outcome
Convictions for attempted aggravated rape and armed
robbery affirmed. Habitual offender adjudication and
sentence vacated. Matter remanded for resentencing.

Core Terms
trial court, sentence, convictions, offender, proceedings,
competency, offenses, habitual offender, proceed to
trial, felonies, rape, adjudicated, third-felony, robbery,
sanity, robe, same day, imprisonment, malingering,
restoration, disorder, suicidal, armed, door

LexisNexis® Headnotes

Constitutional Law > ... > Fundamental
Tori Simkovic

Appendix A, 1a

Page 2 of 8
277 So. 3d 874, *874; 2019 La. App. LEXIS 1163, **1
Rights > Procedural Due Process > Scope of
Protection
Criminal Law & Procedure > Preliminary
Proceedings > Pretrial Motions &
Procedures > Competency to Stand Trial
HN1[ ] Procedural
Protection

Due

Process,

Scope

of

The Fourteenth Amendment's Due Process Clause
protects an individual's right not to proceed to trial while
legally incompetent.

Criminal Law & Procedure > Preliminary
Proceedings > Pretrial Motions &
Procedures > Competency to Stand Trial

Criminal Law & Procedure > Preliminary
Proceedings > Pretrial Motions &
Procedures > Competency to Stand Trial
HN2[ ]
Pretrial
Motions
Competency to Stand Trial

&

HN4[ ]
Pretrial
Motions
Competency to Stand Trial

&

Procedures,

Procedures,

La. Code Crim. Proc. Ann. art. 641 provides: Mental
incapacity to proceed exists when, as a result of mental
disease or defect, a defendant presently lacks the
capacity to understand the proceedings against him or
to assist in his defense. La. Code Crim. Proc. Ann. art.
643 provides: The court shall order a mental
examination of the defendant when it has reasonable
grounds to doubt the defendant's mental capacity to
proceed. Reasonable ground in this context refers to
information which, objectively considered, should
reasonably raise a doubt about the defendant's
competency and alert the court to the possibility that the
defendant can neither understand the proceedings,
appreciate the proceedings' significance, nor rationally
aid his attorney in his defense.

Criminal Law & Procedure > Appeals > Standards of
Review > Abuse of Discretion
Evidence > Burdens of Proof > Preponderance of
Evidence
Criminal Law & Procedure > Preliminary
Proceedings > Pretrial Motions &
Procedures > Competency to Stand Trial
HN3[

Stat. Ann. § 15:432. Therefore, an accused bears the
burden of proving by a preponderance of the evidence
that he lacks the capacity to stand trial. Although a trial
court may receive expert medical testimony on the issue
of a defendant's competency to proceed to trial, the
ultimate decision of capacity rests alone with the trial
court. La. Code Crim. Proc. Ann. art. 647. A reviewing
court owes the trial court's determinations as to the
defendant's competency great weight, and the trial
court's ruling thereon will not be disturbed on appeal
absent an abuse of discretion.

The Louisiana Supreme Court has provided the proper
considerations to determine whether a defendant is fully
aware of the nature of the proceedings against him,
which include whether he: (1) understands the nature of
the charge and can appreciate its seriousness; (2)
understands what defenses are available; (3) can
distinguish a guilty plea from a not guilty plea and
understand the consequences of each; (4) has an
awareness of his legal rights; and, (5) understands the
range of possible verdicts and the consequences of
conviction. The court has also provided the following
factors to consider when determining an accused's
ability to assist in his defense, including whether a
defendant: (1) is able to recall and relate facts pertaining
to his actions and whereabouts at certain times; (2) is
able to assist counsel in locating and examining relevant
witnesses; (3) is able to maintain a consistent defense;
(4) is able to listen to the testimony of witnesses and
inform his lawyer of any distortions or misstatements;
(5) has the ability to make simple decisions in response
to well explained alternatives; (6) is capable of testifying
in his own defense if necessary to defense strategy; and
(7) is apt to deteriorate in his mental capacity under the
stress of trial.

Criminal Law & Procedure > ... > Adjustments &
Enhancements > Criminal History > Three Strikes

] Standards of Review, Abuse of Discretion

Louisiana law presumes a defendant's sanity. La. Rev.

HN5[

] Criminal History, Three Strikes

The Louisiana Supreme Court has explained that there

Tori Simkovic

Appendix A, 2a

Page 3 of 8
277 So. 3d 874, *874; 2019 La. App. LEXIS 1163, **1
is no statutory bar to applying the habitual offender law
in sentencing for more than one conviction obtained on
the same date, whether the convictions result from
separate felonies committed at separate times or arise
out of a single criminal act or episode. However, the
legislature enacted 2005 La. Acts 218, amending La.
Rev. Stat. Ann. § 15:529.1(B) to provide that multiple
convictions obtained on the same day prior to October
19, 2004, shall be counted as one conviction for the
purpose of this Section. This amended the
jurisprudential repudiation of the one day, one
conviction rule in the computation of predicate offenses
for purposes of determining habitual offender status,
according the decision only prospective effect and
reflecting legislative endorsement of the court's
interpretation of the habitual offender law and its return
to the plain language of the statute.

Counsel: LOUISIANA APPELLATE PROJECT, By:
Holli Ann Herrle-Castillo, Counsel for Appellant.
JAMES E. STEWART, SR., District Attorney, MONIQUE
YVETTE METOYER, RICHARD S. FEINBERG,
Assistant District Attorneys, Counsel for Appellee.

Judges: Before MOORE, COX, and STEPHENS, JJ.

Opinion by: STEPHENS

Opinion
[*875] [Pg 1] STEPHENS, J.
This criminal appeal arises from the First Judicial District
Court, Parish of Caddo, State of Louisiana. The
defendant, Joseph M. Bryant, was charged by bill of
information with attempted aggravated rape (violations
of La. R.S. 14:27 and 14:42) and armed robbery (a
violation of La. R.S. 14:64). Following a jury trial, Bryant
was convicted as charged. He was adjudicated a thirdfelony offender and sentenced to serve life

imprisonment without benefit of probation, parole, or
suspension of sentence. Bryant now appeals. For
[*876] the following reasons, we affirm the convictions
for attempted aggravated rape and armed robbery;
however, we vacate the habitual offender adjudication
and sentence and remand the matter [**2] for
resentencing.

FACTS
At the trial held on November 8, 2017, the following
evidence was adduced. On the morning of August 22,
2014, the victim, SS, was home alone watching
television when her doorbell rang.1 SS looked through
the peephole, and observed a tall, dark-skinned black
male, wearing a baseball cap, holding a business card.
The man, later identified as the defendant, Joseph M.
Bryant, indicated that he worked for a tree service and
inquired if SS desired service at her home. SS declined,
but cracked the door open just enough to take the
business card from Bryant. As she opened the door,
Bryant put his foot in the threshold of the door. SS noted
the perpetrator was much larger than she. Bryant asked
SS if her husband was home. When she said no, Bryant
forced his way into SS's home.
[Pg 2] Once inside the home, SS observed Bryant
holding a pocketknife. Bryant ordered SS not to scream
and told her, "I am going to rape you and kill you," a
threat he repeatedly made during the assault. SS and
Bryant walked from the entryway of her home, through
the dining room, into the kitchen, and eventually ended
up in the den. While in the den, Bryant threw SS onto
the sofa and again informed [**3] her that he was going
to rape her. While still armed with the pocketknife,
Bryant then straddled SS, throwing both of his legs on
the outside of both of SS's legs and untied her robe. SS
was wearing only a robe, nightshirt, and underwear.
After untying SS's robe, Bryant lifted up SS's nightshirt
and touched her vagina on top of her underwear.
Throughout the incident, SS continually pleaded for her
life and Bryant repeatedly told SS that he planned to
rape and kill her. While pleading for her life, SS offered
Bryant her vehicle, money, and jewelry. Bryant became
interested in the money and got off SS, at which point
she wrapped her robe around herself. Bryant followed
her to the master bedroom to retrieve her purse. The

1 Herein,

we use the initials of the victim's name in order to
keep her identity confidential in accordance with La. R.S.
46:1844(W).

Tori Simkovic

Appendix A, 3a

Page 4 of 8
277 So. 3d 874, *876; 2019 La. App. LEXIS 1163, **3
two went back into the den, where Bryant took $120
cash from SS. Somehow, with his knife still drawn, the
two ended back up in the bedroom. For a second time,
Bryant threw SS onto the bed and told her he would
rape her. Bryant, again, untied SS's robe and straddled
her—she could not move. SS made every effort to
protect herself as she was being attacked.
Suddenly, Bryant stopped, sat up on the bed, and
instructed SS to fix her robe. He then began to tell SS
that she was [**4] a nice person and told her that his
daughter had recently been killed. Bryant became
emotional and began to weep. At that point, Bryant got
off the bed and the two went into the sunroom, through
the den, into the entryway, and arrived at SS's front [Pg
3] door. Bryant asked for a hug, SS relented, and Bryant
exited the home. Having learned SS's first name at
some point during the incident, Bryant called out to her
from the other side of the door using her name. Bryant
asked to reenter the home, and SS refused. Bryant then
asked if SS intended to call the police and requested
reentry a second time. Again, SS refused and eventually
Bryant left. Afraid to call the police, SS called her
husband, who then called police.
[*877] Later, Bryant was apprehended in connection
with other incidents and arrested. When SS was shown
a six-person photographic lineup, she identified Bryant
as the man who entered her home on the morning of
August 22, 2014. SS additionally made an in-court
identification of Bryant at his trial.
Prior to trial, on June 3, 2015, Bryant's trial counsel
made an oral motion for the appointment of a sanity
commission. On September 14, 2015, after receiving
reports from Dr. Marc Colon [**5] and Dr. George
Seiden, the trial court found that Bryant lacked the
ability to meet the legal criteria to assist in his own
defense as required by State v. Bennett, 345 So. 2d
1129 (La. 1977). Bryant was ordered to receive
treatment at the Eastern Louisiana Mental Health
System, Forensic Division in Jackson, Louisiana
("ELMHS"). The criminal proceedings were stayed
pending Bryant's restoration to competency.
On April 27, 2016, the staff psychiatrist at the ELMHS
opined that Bryant had been restored to capacity.
However, due to further concerns regarding his mental
capacity, the trial court held the matter open pending a
report from Bryant's medical providers. As a result, on
May 31, 2016, a subsequent hearing was conducted,
and Dr. Colon testified. After that [Pg 4] testimony, the
trial court determined that Bryant's competency was not

regained, and the stay in his proceedings continued.
On January 10, 2017, a final sanity hearing was held.
The sanity commission was composed of Dr. Laura
Brown and Dr. John Roberts, and both doctors opined
that Bryant was malingering, or reporting severe
symptoms that were likely not accurate. Dr. Roberts
confirmed that Bryant's behavior when being evaluated
differed from that of his behavior on [**6] the unit. Dr.
Roberts further testified that it is difficult to know a
patient's motivations and whether or not his motivation
skews functioning. However, in this case, that
consideration did not affect Bryant's restoration of
competency.
Accordingly, the trial court deemed Bryant competent to
proceed to trial, which commenced on November 8,
2017. Based on the evidence presented at trial, the jury
returned verdicts of guilty as charged of attempted
aggravated rape and armed robbery. Notably, Bryant
does not challenge the sufficiency of the evidence.
A habitual offender hearing was held on January 4,
2018. Prior to the hearing, motions for post-verdict
judgment of acquittal and new trial were denied by the
trial court. John McCain, of the Caddo Parish Sheriff's
Office, testified to two prior felonies committed by Bryant
which occurred in Texas, where he was tried. Bryant
was previously convicted of robbery on October 31,
1994, and of sexual assault on the same date but for a
completely unrelated incident. Based on those prior
convictions, the trial court adjudicated Bryant a thirdfelony offender and sentencing was held on the same
day. The trial court sentenced Bryant to life
imprisonment [**7] without the benefit of probation,
parole, or suspension of sentence. Bryant [Pg 5]
subsequently filed a motion to reconsider sentence,
which was denied, and this appeal ensued.

DISCUSSION

Mental Capacity
In his first assignment of error, Bryant contends the trial
court erred in finding him competent to proceed to trial.
Specifically, Bryant argues he was deprived of a fair trial
when he was forced to proceed to trial while he was still
incompetent and unable to assist his trial counsel in his
defense. In response, the state submits that several
qualified physicians found Bryant competent to stand

Tori Simkovic

Appendix A, 4a

Page 5 of 8
277 So. 3d 874, *877; 2019 La. App. LEXIS 1163, **7
trial, and [*878] they noted he was malingering to
avoid having the case proceed to trial. Further, his
actions during the crime indicated a calculated plan, that
of a competent individual. We agree.

determinations as to the defendant's competency great
weight, and the trial court's ruling thereon will not be
disturbed on appeal absent an abuse of discretion.
State v. Anderson, 2006-2987 (La. 9/9/08), 996 So. 2d
973, cert. denied, 556 U.S. 1165, 129 S. Ct. 1906, 173
L. Ed. 2d 1057 (2009).

Legal Principles
HN1[ ] The Fourteenth Amendment's Due Process
Clause protects an individual's right not to proceed to
trial while legally incompetent. State v. Odenbaugh,
2010-0268 (La. 12/6/11), 82 So. 3d 215, cert. denied,
568 U.S. 829, 133 S. Ct. 410, 184 L. Ed. 2d 51 (2012);
State v. Taylor, 49,467 (La. App. 2 Cir. 1/14/15), 161
So. 3d 963.
HN2[ ] Louisiana C. Cr. P. art. 641 provides: "Mental
incapacity to proceed exists when, as a result of mental
disease or defect, a defendant presently lacks the
capacity to understand the proceedings against him or
to assist in his defense." Louisiana C. Cr. P. art. 643
provides: "The court shall order a mental examination of
the defendant when [**8] it has reasonable grounds to
doubt the defendant's mental capacity to proceed."
Reasonable ground in this context refers to information
which, objectively considered, should reasonably raise a
doubt about the defendant's competency and alert the
[Pg 6] court to the possibility that the defendant can
neither understand the proceedings, appreciate the
proceedings' significance, nor rationally aid his attorney
in his defense. State v. Campbell, 2006-0286 (La.
5/21/08), 983 So. 2d 810, cert. denied, 555 U.S. 1040,
129 S. Ct. 607, 172 L. Ed. 2d 471 (2008); State v.
Crossley, 48,149 (La. App. 2 Cir. 6/26/13), 117 So. 3d
585, writ denied, 2013-1798 (La. 2/14/14), 132 So. 3d
410.
HN3[ ] Louisiana law presumes a defendant's sanity.
La. R.S. 15:432; State v. Holmes, 2006-2988 (La.
12/2/08), 5 So. 3d 42, cert. denied, 558 U.S. 932, 130 S.
Ct. 70, 175 L. Ed. 2d 233 (2009); State v. Anderson,
51,603 (La. App. 2 Cir. 9/27/17), 244 So. 3d 640, writ
denied, 2017-1913 (La. 6/1/18), 243 So. 3d 1062.
Therefore, an accused bears the burden of proving by a
preponderance of the evidence that he lacks the
capacity to stand trial. State v. Holmes, supra; State v.
Taylor, 49,467 (La. App. 2 Cir. 1/14/15), 161 So. 3d 963.
Although a trial court may receive expert medical
testimony on the issue of a defendant's competency to
proceed to trial, the ultimate decision of capacity rests
alone with the trial court. La. C. Cr. P. art. 647; State v.
Holmes, supra; State v. Anderson, supra; State v.
Taylor, supra. A reviewing court owes the trial court's

HN4[ ] The Louisiana Supreme Court, in State v.
Bennett, supra, provided the proper considerations to
determine whether a defendant is fully [**9] aware of
the nature of the proceedings against him, which include
whether he: (1) understands the nature of the charge
and can appreciate its seriousness; (2) [Pg 7]
understands what defenses are available; (3) can
distinguish a guilty plea from a not guilty plea and
understand the consequences of each; (4) has an
awareness of his legal rights; and, (5) understands the
range of possible verdicts and the consequences of
conviction. Id. at 1138; State v. Anderson, supra at 64950.
The Bennett court also provided the following factors to
consider when determining an accused's ability to assist
in his defense, including whether a defendant: (1) is
able to recall and relate facts pertaining to his actions
and whereabouts at certain times; (2) is able to assist
counsel in locating and examining relevant witnesses;
(3) [*879] is able to maintain a consistent defense; (4)
is able to listen to the testimony of witnesses and inform
his lawyer of any distortions or misstatements; (5) has
the ability to make simple decisions in response to well
explained alternatives; (6) is capable of testifying in his
own defense if necessary to defense strategy; and (7) is
apt to deteriorate in his mental capacity under the stress
of trial. Id.; State v. Anderson, supra at 650.

Bryant's Competency [**10] Proceedings
In the case sub judice, the trial court exercised great
caution when Bryant's capacity was raised. On June 3,
2015, upon oral motion of trial counsel, the trial court
appointed a sanity commission. The commission was
composed of Dr. Marc Colon and Dr. George Seiden.
Dr. Seiden concluded that "Joseph Bryant currently
does not have the ability to consult with his attorney with
a reasonable degree of rational understanding and
currently does not have a rational and factual
understanding of the proceedings against him." Dr.
Colon came to the same conclusion. Accordingly, at that
time the trial court found that Bryant lacked the ability to
meet the Bennett criteria to [Pg 8] assist in his own
defense. Bryant was ordered to receive treatment at the

Tori Simkovic

Appendix A, 5a

Page 6 of 8
277 So. 3d 874, *879; 2019 La. App. LEXIS 1163, **10
ELMHS. The proceedings were stayed pending Bryant's
restoration to competency.
On April 27, 2016, a subsequent competency hearing
was conducted. Dr. Dennis C. Kelly, Jr., a staff
psychiatrist at the ELMHS, testified before the court. Dr.
Kelly testified that Bryant had been diagnosed with
schizoaffective disorder, bipolar type disorder, and posttraumatic stress disorder. Dr. Kelly further testified that
Bryant was started on several [**11] medications and
reported depression, hallucinations, and suicidal
thoughts. Dr. Kelly noted that there was no indication
that Bryant would act on those thoughts. Dr. Kelly
ultimately concluded that Bryant had a reasonable
understanding of the legal system and could assist his
attorney in preparing a defense. However, upon the
urging of trial counsel, Bryant's status of suicide watch
at Caddo Correctional Facility, and Bryant's significant
history with mental illness, the trial judge noted some
concern that Bryant may have displayed some
"regression" in his condition. Thus, the trial court
suggested holding the hearing open, pending reports
with the appointed psychiatric providers. All parties
agreed.
Approximately one month later, on May 31, 2016,
following testimony of Dr. Colon, the trial court found
that Bryant's capacity had not been regained. Dr. Colon
testified that since Bryant's return from the ELMHS, he
had been on one-on-one observation. Dr. Colon further
testified that Bryant made two overdose attempts,
punched a wall, and complained of auditory
hallucinations. Dr. Colon opined that Bryant was not
malingering. Bryant was ordered to return to the
ELMHS, and the stay of the [**12] criminal proceeding
was maintained.
[Pg 9] On January 10, 2017, a subsequent sanity
hearing was held, at which both Dr. Laura Brown and
Dr. John Roberts opined that Bryant was malingering or
reporting severe symptoms that were likely not
accurate. In her first assessment of Bryant, Dr. Brown, a
clinical psychologist, noted that Bryant had suicide
orientation, depression, and hopelessness. When asked
about her second assessment of Bryant, Dr. Brown
said:
Q: Okay. Let's move to the second assessment you
performed. Can you discuss that for us, please?
A: Sure. The second assessment was the
assessment toward the end of his hospitalization,
when we were assessing his—understanding of his
case and legal [*880] knowledge and his

competency to proceed.
Q: And what did you learn?
A: In that one I gave a standardized competency
measure, and he actually performed pretty well on
it. He knew all of the information. He was able to
demonstrate a rational understanding of all of the
relevant things that happened in court. He knew
about plea bargains, the legal system, possible
consequences of his—his offenses if he . . . were
found guilty.
So he understood all of that. He also knew how he
could assist in his defense. [**13] He talked about
what kind of things he should tell his lawyer or what
his lawyer expected from him, but he also
demonstrated some sort of self-defeating beliefs.
Q: What do you mean?
A: That he didn't really want to assist in his defense.
He made that very clear that he didn't want to go
forward with his case. He felt hopeless about the
results of his case.
Further, Dr. Brown testified that Bryant disclosed to a
security guard that he would go on a hunger strike and
become suicidal so as not to go back to the parish jail.
Additional query by the trial court of Dr. Brown included:
THE COURT: Dr. Brown, it appears from the
reports that I've reviewed, which I think is all of
them—that when Mr. Bryant is aware he is being
assessed for a determination that bears on his
competency, he presents one affect, but the report
from all of those who deal with him on an informal,
non-evaluative basis, [Pg 10] describe a very
different affect, much more emotional, far less
blunt. Is that a fair characterization of what you
determine from your observations?
DR. BROWN: Yes.
Dr. Roberts' opinion corroborated that of Dr. Brown. Dr.
Roberts, a psychiatrist and Bryant's treating physician
the entire time he was [**14] housed at the ELMHS,
diagnosed Bryant with a depressive disorder,
unspecified personality disorder, as well as numerous
other medical conditions. Dr. Roberts testified that while
speaking with therapists, Bryant would have constricted
affect, claim suicidality, and slow speech. However, Dr.
Roberts' observations of Bryant on the unit differed.
Although Bryant claimed he could not concentrate, he
came in second place in a unit video game
championship and read books in his room. Dr. Roberts
further testified that it is difficult to know a patient's
motivations and whether or not functioning is skewed. In
this case, that consideration did not seem to interfere
with Bryant's restoration of competency. The trial court

Tori Simkovic

Appendix A, 6a

Page 7 of 8
277 So. 3d 874, *880; 2019 La. App. LEXIS 1163, **14
asked Dr. Roberts:
THE COURT: Based on your treatment of Mr.
Bryant, are you aware of any aspect of his
psychiatric condition that if he were motivated
would preclude his ability to cooperate with his
lawyer?
DR. ROBERTS: No.
....
THE COURT: Based on his ability to communicate
with you, [Dr. Roberts], the staff, is it your medical
opinion that Mr. Bryant is capable and competent to
stand trial, if he performs as he did during his most
recent evaluations?
DR. ROBERTS: Yes, I [**15] do believe that he
has a current rational, as well as a factual,
understanding of the proceedings against him, as
well as the present ability to consult with his lawyer
to a reasonable degree of rational understanding.
[Pg 11] Analysis
In this case, over the course of the proceedings against
Bryant, it is abundantly [*881] clear that the trial court
went through painstaking efforts to ensure the
defendant was afforded his constitutional rights in
regard to his competency to stand trial for these
offenses. In fact, the concern and level of understanding
by the trial judge stands out in this record—the
comments made and questions asked. Four separate
hearings were held, with testimony from five different
doctors. The trial court twice found that Bryant was not
competent to proceed to trial. However, upon the
medical opinions of Drs. Brown and Roberts that Bryant
was malingering to avoid facing serious consequences,
the trial court used its discretion to find Bryant
competent to proceed to trial. The medical providers at
the final proceeding went into great detail regarding
Bryant's condition and behavior. They were questioned
by both parties as well as the trial judge, who was well
familiar with [**16] Bryant's medical reports. Based on
the above evidence, the trial court did not abuse its
discretion in finding that the defendant was competent
to proceed to trial. Accordingly, this assignment of error
is without merit.

Habitual Offender Adjudication
In his second assignment of error, Bryant argues the
trial court erred in adjudicating him a third-felony
offender. Bryant submits he was erroneously
adjudicated a third-felony offender because he obtained
two prior convictions on the same day and, accordingly,

the convictions are one prior conviction for purposes of
enhancement as mandated in La. R.S. 15:529.1(B). We
agree.
[Pg 12] Legal Principles
Our habitual offender law is promulgated in La. R.S.
15:529.1. Bryant was adjudicated a third-felony offender
under subsection (A)(3) of the statute, which provides:
If the third felony is such that upon a first conviction,
the offender would be punishable by imprisonment
for any term less than his natural life then the
following sentences apply:
(a) The person shall be sentenced to imprisonment
for a determinate term not less than one-half of the
longest possible sentence for the conviction and not
more than twice the longest possible sentence
prescribed for a first conviction.
[**17] (b) If the third felony and the two prior
felonies are felonies defined as a crime of violence
under R.S. 14:2(B), or a sex offense as defined in
R.S. 15:541 when the victim is under the age of
eighteen at the time of commission of the offense,
or any combination of such crimes, the person shall
be imprisoned for the remainder of his natural life,
without benefit of parole, probation, or suspension
of sentence.
Moreover, La. R.S. 15:529.1(B) provides in pertinent
part:
B. It is hereby declared to be the intent of this
Section that an offender need not have been
adjudged to be a second offender in a previous
prosecution in order to be charged as and adjudged
to be a third offender, or that an offender has been
adjudged in a prior prosecution to be a third
offender in order to be convicted as a fourth
offender in a prosecution for a subsequent crime.
Multiple convictions obtained on the same day
prior to October 19, 2004, shall be counted as
one conviction for the purpose of this Section.
(Emphasis added.)
HN5[ ] The Louisiana Supreme Court, in State v.
Shaw, 2006-2467 (La. 11/27/07), 969 So. 2d 1233,
1245, explained that "[t]here is no statutory bar to
applying the habitual offender law in sentencing for
more than one conviction obtained on the same date,
whether the convictions result from separate [*882]
felonies committed at separate [**18] times or arise out
of a single [Pg 13] criminal act or episode." However,
the Shaw court specifically noted that the legislature

Tori Simkovic

Appendix A, 7a

Page 8 of 8
277 So. 3d 874, *882; 2019 La. App. LEXIS 1163, **18
enacted 2005 La. Acts 218, amending
La. R.S.
15:529.1(B) to provide that "[m]ultiple convictions
obtained on the same day prior to October 19, 2004,
shall be counted as one conviction for the purpose of
this Section." This amended the jurisprudential
repudiation of the "one day, one conviction" rule in the
computation of predicate offenses for purposes of
determining habitual offender status, according the
decision only prospective effect and reflecting legislative
endorsement of the court's interpretation of the habitual
offender law and its return to the plain language of the
statute. See also, State v. Badeaux, 2018-0020 (La.
App. 1 Cir. 6/4/18), 251 So. 3d 1134, writ denied, 20181066 (La. 3/18/19), 267 So. 3d 85; State v. Hagans,
2014-0050 (La. App. 4 Cir. 10/1/14), 151 So. 3d 719,
writ denied, 2014-2149 (La. 5/15/15), 170 So. 3d 159.

enhancement.
However, the issue here is whether or not the predicate
offenses count as two separate convictions for purposes
of determining Bryant's habitual offender status. While
the two predicate offenses occurred on different dates,
the convictions for both offenses were obtained on the
same date prior to October 19, 2004. Louisiana R.S.
15:529.1(B) and the Louisiana Supreme Court in Shaw,
supra, clarify that because the convictions were
obtained prior to October 19, 2004, the convictions are
considered [**20] one conviction for purposes of the
habitual offender adjudication. Accordingly, Bryant was
erroneously adjudicated a third-felony offender.3
Therefore, the habitual offender adjudication and
sentence [*883] must be vacated and the matter
remanded for resentencing.
[Pg 15] CONCLUSION

Analysis
In adjudicating Bryant a habitual offender, the trial court
relied on two previous convictions in Texas. A review of
the record shows that Bryant was convicted of robbery
in Dallas County, Texas, on October 31, 1994, which
offense occurred on June 19, 1992. For that conviction,
Bryant received a sentence of 20 years. Additionally,
Bryant was convicted of sexual assault in Dallas
County, Texas, on the same day—October 31, 1994.
That offense occurred [**19] on April 9, 1994, and
Bryant received a sentence of 10 years. Both offenses
are felony offenses in the state of Texas, and, therefore,
would be considered felony offenses in Louisiana. See,
La. R.S. 15:529.1(A).2 Thus, although for different
crimes committed on different [Pg 14] dates, Bryant had
"multiple convictions obtained on the same day prior to
October 19, 2004," i.e., two convictions on October 31,
1994. Moreover, we note that the record further shows
Bryant was released from the supervision of the Texas
Department of Criminal Justice Pardons and Parole
Division on February 7, 2014. Thus, more than 10 years
has not elapsed and the prior offenses can be used as
predicate offenses for purposes of sentencing

For the foregoing reasons, the convictions against
Joseph M. Bryant for attempted aggravated rape and
armed robbery are affirmed. His habitual offender
adjudication and sentence are vacated and the matter
remanded for resentencing.
CONVICTIONS AFFIRMED; ADJUDICATION AND
SENTENCE VACATED; REMANDED FOR FURTHER
PROCEEDINGS.

End of Document

2 The

statute requires Louisiana courts to determine the
analogous state crime according to the nature of the act
involved, not the penalty provided for the offense in the foreign
jurisdiction. State v. Carouthers, 618 So. 2d 880, 882 (La.
1993). In this case, the trial court made a thorough and legally
appropriate analysis of the predicate offenses in Texas. See
also, State v. Wheatley, 550 So. 2d 724 (La. App. 2 Cir. 1989),
writ denied, 569 So. 2d 979 (La. 1990); State v. Godfrey,
2008-828 (La. App. 3 Cir. 3/3/10), 32 So. 3d 1020, writ denied,
2010-0758 (La. 10/29/10), 48 So. 3d 1097.

3 It

should be noted that based on the ruling in Shaw, supra,
Bryant's sentences for the current convictions of attempted
aggravated rape and robbery, which occurred on the same
date, can both be enhanced pursuant to the appropriate
habitual offender adjudication.

Tori Simkovic

Appendix A, 8a

Neutral
As of: January 20, 2021 1:44 AM Z

State v. Bryant
Court of Appeal of Louisiana, Second Circuit
March 4, 2020, Judgment rendered
No. 53,321-KA
Reporter
293 So. 3d 701 *; 2020 La. App. LEXIS 361 **; 53,321 (La.App. 2 Cir. 03/04/20);; 2020 WL 1036292

STATE OF LOUISIANA, Appellee versus JOSEPH M.
BRYANT, Appellant

Subsequent History: Writ denied by State v. Bryant,
2020 La. LEXIS 2714 (La., Nov. 10, 2020)

Prior History: [**1] Appealed from the First Judicial
District Court for the Parish of Caddo, Louisiana. Trial
Court No. 327055. Honorable Brady D. O'Callaghan,
Judge.

State v. Bryant, 277 So. 3d 874, 2019 La. App. LEXIS
1163, 2019 WL 2608468 (La.App. 2 Cir., June 26, 2019)

excessive under La. Const. art. I, § 20 for his conviction
of armed robbery and attempted aggravated rape
because the concurrent 65-year sentences were well
within the applicable ranges, and the trial judge had
previously considered all of the relevant factors under
La. Code Crim. Proc. Ann. art. 894.1. In particular, he
considered defendant's criminal history and mental
health issues, and the trial judge found that the similarity
and nature of the instant offenses to the prior offenses
indicated that a serious sentence was both appropriate
and necessary. In consideration of the harm done to
society, the sentences imposed on defendant were not
disproportionate and did not shock the sense of justice,
and the sentences were absolutely justified.

Outcome
Sentences affirmed.

Core Terms
sentence, trial judge, convictions, mental health issues,
habitual offender, impose sentence, state hospital,
offenses, rape, sexual assault, trial court, resentencing,
aggravated, disorder, robe, mental illness, armed
robbery, hallucinations, suspension, probation, suicide,
parole, door

LexisNexis® Headnotes

Criminal Law & Procedure > ... > Sex
Crimes > Sexual Assault > Rape

Case Summary

HN1[

Overview

Aggravated rape is now designated as first degree rape.
La. Rev. Stat. Ann. § 14:42.

HOLDINGS: [1]-The habitual offender sentences
imposed on defendant were not unconstitutionally

] Sexual Assault, Rape

Criminal Law & Procedure > Sentencing > Cruel &

Tori Simkovic

Appendix B, 9a

Page 2 of 7
293 So. 3d 701, *701; 2020 La. App. LEXIS 361, **1
Unusual Punishment

Rights > Cruel & Unusual Punishment

Criminal Law &
Procedure > Sentencing > Imposition of
Sentence > Factors

Criminal Law & Procedure > Sentencing > Cruel &
Unusual Punishment
Criminal Law &
Procedure > Sentencing > Proportionality

Criminal Law &
Procedure > Sentencing > Resentencing

Criminal Law &
Procedure > Sentencing > Appeals > Proportionality
& Reasonableness Review

Criminal Law &
Procedure > Sentencing > Imposition of
Sentence > Findings
Criminal Law &
Procedure > Sentencing > Sentencing Guidelines
HN2[

] Sentencing, Cruel & Unusual Punishment

A reviewing court imposes a two-prong test to determine
whether a sentence is excessive. First, the record must
show that the trial court took cognizance of the criteria
set forth in La. Code Crim. Proc. Ann. art. 894.1. The
trial court is not required to list every aggravating or
mitigating circumstance so long as the record reflects
adequate consideration of the guidelines of the article.
The court shall state for the record the considerations
taken into account and the factual basis therefor in
imposing sentence. La. Code Crim. Proc. Ann. art.
894.1(C). The articulation of the factual basis for the
sentence is the goal of La. Code Crim. Proc. Ann. art.
894.1, not rigid or mechanical compliance with its
provisions. Where the record clearly shows an adequate
factual basis for the sentence, resentencing is
unnecessary even where there has not been full
compliance with La. Code Crim. Proc. Ann. art. 894.1.

A sentence violates La. Const. art. I, § 20, if it is grossly
out of proportion to the seriousness of the offense or
nothing more than a purposeless and needless infliction
of pain and suffering. A sentence is considered grossly
disproportionate if, when the crime and punishment are
viewed in light of the harm done to society, it shocks the
sense of justice.

Criminal Law &
Procedure > ... > Appeals > Standards of
Review > Abuse of Discretion
Criminal Law & Procedure > Sentencing > Cruel &
Unusual Punishment
Criminal Law & Procedure > Sentencing > Ranges
HN5[

] Standards of Review, Abuse of Discretion

A trial court has wide discretion to sentence within the
statutory limits. Absent a showing of manifest abuse of
that discretion, a sentence will not be set aside as
excessive. On review, an appellate court does not
determine whether another sentence may have been
more appropriate, but whether the trial court abused its
discretion.

Criminal Law &
Procedure > Sentencing > Imposition of
Sentence > Factors
HN3[

HN4[ ] Fundamental Rights, Cruel & Unusual
Punishment

] Imposition of Sentence, Factors

The defendant's personal history (age, family ties,
marital status, health, employment record), prior criminal
record, seriousness of the offense, and the likelihood of
rehabilitation are important elements to consider. There
is no requirement that specific matters be given any
particular weight at sentencing.

Criminal Law & Procedure > ... > Sexual
Assault > Rape > Penalties
Criminal Law & Procedure > Sentencing > Ranges
Criminal Law & Procedure > ... > Inchoate
Crimes > Attempt > Penalties

Constitutional Law > Bill of Rights > Fundamental

HN6[

Tori Simkovic

] Rape, Penalties

Appendix B, 10a

Page 3 of 7
293 So. 3d 701, *701; 2020 La. App. LEXIS 361, **1
For attempted aggravated rape, the sentencing range is
10 to 50 years at hard labor, without benefit of
probation, parole, or suspension of sentence. La. Rev.
Stat. Ann. §§ 14:42; 14:27.

abuse his discretion when imposing the sentences, we
affirm them.

FACTS
Criminal Law & Procedure > ... > Robbery > Armed
Robbery > Penalties
Criminal Law & Procedure > Sentencing > Ranges
HN7[

] Armed Robbery, Penalties

For armed robbery, the sentencing range is 10 to 99
years at hard labor, without benefit of parole, probation,
or suspension of sentence. La. Rev. Stat. Ann. § 14:64.

Counsel: LOUISIANA APPELLATE PROJECT, By:
Holli Ann Herrle-Castillo, Counsel for Appellant.
JOSEPH BRYANT, Pro se.
JAMES E. STEWART, SR., District Attorney, RICHARD
S. FEINBERG, KODIE K. SMITH, Assistant District
Attorneys, Counsel for Appellee.

Judges: Before WILLIAMS, STEPHENS, and
McCALLUM, JJ.

Opinion by: McCALLUM

Opinion
[*703] [Pg 1] McCALLUM, J.
Adjudicated a second-felony habitual offender after
being convicted of armed robbery and attempted
aggravated rape, Joseph Bryant appeals his habitual
offender sentences, contending that they are
unconstitutionally excessive. Concluding that the
sentences are justified and that the trial judge did not

The details of Bryant's current offenses were set forth in
a prior appeal in this matter:
On the morning of August 22, 2014, the victim, SS,
was home alone watching television when her
doorbell rang. SS looked through the peephole, and
observed a tall, dark-skinned black male, wearing a
baseball cap, holding a business card. The man,
later identified as the defendant, Joseph [**2] M.
Bryant, indicated that he worked for a tree service
and inquired if SS desired service at her home. SS
declined, but cracked the door open just enough to
take the business card from Bryant. As she opened
the door, Bryant put his foot in the threshold of the
door. SS noted the perpetrator was much larger
than she. Bryant asked SS if her husband was
home. When she said no, Bryant forced his way
into SS's home.
Once inside the home, SS observed Bryant holding
a pocketknife. Bryant ordered SS not to scream and
told her, "I am going to rape you and kill you," a
threat he repeatedly made during the assault. SS
and Bryant walked from the entryway of her home,
through the dining room, into the kitchen, and
eventually ended up in the den. While in the den,
Bryant threw SS onto the sofa and again informed
her that he was going to rape her. While still armed
with the pocketknife, Bryant then straddled SS,
throwing both of his legs on the outside of both of
SS's legs and untied her robe. SS was wearing only
a robe, nightshirt, and underwear. After untying
SS's robe, Bryant lifted up SS's nightshirt and
touched her vagina on top of her underwear.
Throughout
the
incident,
SS
continually
pleaded [**3] for her life and Bryant repeatedly told
SS that he planned to rape and kill her. While
pleading for her life, SS offered Bryant her vehicle,
money, and jewelry. Bryant became interested in
the money and got off SS, at which point she
wrapped her robe around herself. Bryant followed
her to the master bedroom to retrieve her purse.
The two went back into the den, where Bryant took
$120 cash from SS. Somehow, with his knife still
[Pg 2] drawn, the two ended back up in the
bedroom. For a second time, Bryant threw SS onto
the bed and told her he would rape her. Bryant,

Tori Simkovic

Appendix B, 11a

Page 4 of 7
293 So. 3d 701, *703; 2020 La. App. LEXIS 361, **3
again, untied SS's robe and straddled her - she
could not move. SS made every effort to protect
herself as she was being attacked.
Suddenly, Bryant stopped, sat up on the bed, and
instructed SS to fix her robe. He then began to tell
SS that she was a nice person and told her that his
daughter had recently been killed. Bryant became
emotional and began to weep. At that point, Bryant
got off the bed and the two went into the sunroom,
through the den, into the entryway, and arrived at
SS's front door. Bryant asked for a hug, SS
relented, and Bryant exited the home. Having
learned SS's first name at some point during the
incident, [**4] Bryant called out to her from the
other side of the door using her name. Bryant
asked to reenter the home, and SS refused. Bryant
then asked if SS intended to call the police and
requested reentry a second time. Again, SS refused
and eventually [*704] Bryant left. Afraid to call the
police, SS called her husband, who then called
police.
Later, Bryant was apprehended in connection with
other incidents and arrested. When SS was shown
a six-person photographic lineup, she identified
Bryant as the man who entered her home on the
morning of August 22, 2014. SS additionally made
an in-court identification of Bryant at his trial.
State v. Bryant, 52,743, pp. 1-3 (La. App. 2 Cir.
6/26/19), 277 So. 3d 874, 876-7, writ denied, 19-01320
(La. 10/08/19), 280 So. 3d 171.
Bryant was charged by bill of information with attempted
aggravated rape ( La. R.S. 14:42 and 14:27)1 and
armed robbery ( La. R.S. 14:64). Bryant's mental status
became an issue leading up to trial. On September 14,
2015, the trial judge ordered Bryant's commitment upon
finding that he lacked the mental capacity to understand
the proceedings against him or to assist in his defense.
The Eastern Louisiana Mental Health System Forensic
Division ("state hospital") discharged Bryant in March of
2016 on the basis that he had the mental capacity to
proceed. Following a hearing on May 31, [Pg 3] [**5]
2016, the trial judge determined that Bryant had not
regained competency and ordered his return to the state
hospital.
Another sanity hearing was held on January 10, 2017,

during which the trial judge heard testimony from
treating providers that Bryant presented one affect when
he was being evaluated and a different affect at other
times. The providers also asserted that Bryant was
competent to stand trial. The trial judge ruled that Bryant
had been restored to competency.
On November 8, 2017, Bryant was convicted as
charged of armed robbery and attempted aggravated
rape. Bryant filed a motion for new trial as well as a
motion for post-verdict judgment of acquittal. Both
motions were denied.
On December 13, 2017, the State filed a habitual
offender bill against Bryant charging him as a third
felony habitual offender. Bryant had been convicted of
the two predicate felonies, robbery and sexual assault,
in Dallas County, Texas on October 31, 1994. He
received a sentence of 10 years for the sexual assault,
and a sentence of 20 years for the robbery. The
predicate felonies had been committed on different
dates. The robbery occurred on June 19, 1992, while
the sexual assault occurred [**6] on April 9, 1994.
According to testimony at that habitual offender
proceeding, records from Texas indicated that Bryant's
departure date from the Texas Department of
Corrections was February 7, 2014.
On January 4, 2018, Bryant was adjudicated a thirdfelony offender and sentenced to life imprisonment
without the benefit of parole, probation, or suspension of
sentence. The trial judge concluded that the mandatory
sentence of life without parole, probation, or
suspension, as dictated by La. R.S. 15:529.1(A)(3)(b),
was appropriate considering not only the violent nature
[Pg 4] of the current offenses, but also the brief time
between Bryant's release from incarceration and the
commission of the current offenses.
A motion to reconsider sentence was filed on January
18, 2018. Bryant's counsel contended that Bryant was
18 years old when previously convicted and that he
suffered from mental health issues.2 The court denied
the motion.
[*705] Bryant appealed his convictions and sentence.
The first assignment of error asserted that the trial court
erred in finding Bryant competent to proceed to trial. In
the second assignment of error, Bryant's counsel

2A
1 HN1[

] Aggravated rape is now designated as first degree
rape. La. R.S. 14:42.

presentence investigation report prepared on December
27, 2017, reflected that Bryant's birthdate was February 24,
1975.

Tori Simkovic

Appendix B, 12a

Page 5 of 7
293 So. 3d 701, *705; 2020 La. App. LEXIS 361, **6
argued that the trial court erred in adjudicating Bryant a
third-felony offender. [**7] This Court found no merit to
the first assignment of error and affirmed Bryant's
convictions. However, this Court vacated Bryant's
habitual offender adjudication and remanded for
resentencing. Pursuant to La. R.S. 15:529.1(B) and
State v. Shaw, 06-2467 (La. 11/27/07), 969 So. 2d
1233, the predicate convictions were to be counted as
one conviction because they were obtained on the same
date and prior to October 19, 2004. State v. Bryant,
supra.
Upon remand, Bryant was adjudicated a second-felony
habitual offender on July 24, 2019, and sentenced on
each count to 65 years at hard labor without benefit of
probation, parole, or suspension of sentence. The
sentences were to be served concurrently. Defense
counsel objected to the sentences. The trial judge noted
the objection and stated that the sentences were
actually lower than the midrange sentences requested
by the defense. [Pg 5] Bryant was advised by the trial
judge that he had 30 days to appeal his sentences and
2 years to seek post-conviction relief.
Bryant filed a motion to reconsider sentence on July 26,
2019. He asked the court to reconsider the sentences
imposed because of his young age at the time of the
predicate offenses and because he suffered from
mental health issues. The trial judge denied the motion,
noting in a written [**8] ruling that he had carefully
considered
the
aggravating
and
mitigating
circumstances and concluded that the sentences were
appropriate. The trial judge added that after reviewing
the motion and the reasons stated in court, his opinion
remained that the sentences were reasonable. Bryant
has appealed his sentences.

DISCUSSION
Bryant's sole assignment of error on appeal is that his
sentences are unjustified and unconstitutionally
excessive. He maintains that the trial judge did not
properly consider the long history or magnitude of his
mental illness and the effect it had on his behavior. In
support of this argument, Bryant's appellate counsel
refers to a competency evaluation report as well as
testimony given by physicians at the competency
hearings.
A competency evaluation was conducted by Dr. George
Seiden on July 17, 2015. During the evaluation, Bryant
informed Dr. Seiden that he heard voices that told him
to do bad things. Dr. Seiden also noted that Bryant

appeared to be responding to voices during the
evaluation. Bryant reported having hallucinations,
including some where he ate bloody bodies. Bryant also
told Dr. Seiden that he had attempted suicide several
times. Dr. Seiden's diagnosis [**9] was schizophrenia.
[Pg 6] Drs. Marc Colon and Ashleigh Fleming examined
Bryant on August 25, 2015. Bryant told them about a
history of psychiatric treatment dating back to when he
first saw a psychiatrist at the age of 9 or 10 after he set
his stepfather's bed afire. He also reported delusions of
control and paranoia, as well as hallucinations.
Bryant was ordered committed on September 14, 2015.
However, he was discharged from the state hospital and
sent back to the Caddo Correctional Center ("CCC") in
March of 2016.
Dr. Dennis Kelly, a staff psychiatrist at the state hospital,
testified at an April 27, 2016, hearing that Bryant had
been diagnosed with schizoaffective disorder of a
bipolar type and post-traumatic stress disorder. [*706]
Dr. Kelly also testified that Bryant had been subjected to
an aggressive treatment regimen at the state hospital.
Bryant continued to report hallucinations and suicidal
thoughts. Dr. Kelly agreed that Bryant had a significant
history of mental illness.
Dr. Colon, who treated Bryant at CCC, testified at a
hearing conducted on May 31, 2016. Dr. Colon stated
that Bryant had been withdrawn and psychotic since his
return to CCC. Bryant also refused to accept
medical [**10] and psychiatric treatment there. Bryant,
who had attempted suicide by overdose twice, was
placed on suicide watch. Bryant had also complained of
hallucinations, and in one instance, had punched a wall.
Dr. Colon did not think that Bryant was malingering in
order to avoid going to trial, but thought that his
condition was related to chronic mental illness. Dr.
Colon recommended a specific medication and
electroconvulsive therapy if Bryant returned to the state
hospital.
[Pg 7] Drs. Laura Brown and John Roberts testified at a
sanity hearing on January 10, 2017. Dr. Brown,
accepted as an expert in the field of forensic psychiatry,
had assessed Bryant at the state hospital. She thought
Bryant probably suffered from a depressive type of
mental illness, and possibly a personality disorder.
Dr. Roberts, who was accepted as an expert in the field
of psychiatry, treated Bryant when he was at the state
hospital in 2016. He testified that Bryant had been
diagnosed with a depressive disorder and an

Tori Simkovic

Appendix B, 13a

Page 6 of 7
293 So. 3d 701, *706; 2020 La. App. LEXIS 361, **10
unspecified personality disorder, and he possibly had
some psychosis as well. Bryant also reported hearing
voices with command hallucinations. Dr. Roberts
acknowledged that Bryant's records showed that [**11]
he had a long psychiatric history. Bryant had been
prescribed medicines for mood stabilization and for the
treatment of psychosis.
While Dr. Roberts was testifying about one of Bryant's
suicide attempts, Bryant disrupted the proceedings by
shouting, "Liar, liar, liar, liar." Dr. Roberts thought the
outburst could be indicative of mental illness or possibly
frustration over his situation. At the conclusion of the
hearing, the trial judge described Bryant's conduct in
court for the record. Bryant, who was handcuffed to a
wheelchair, had leapt forward and tried to leave the
courtroom through the inmate entrance while dragging
the wheelchair behind him.
Bryant's appellate counsel also refers to a mental health
evaluation report in the Texas Department of
Corrections records which showed that Bryant had been
diagnosed
with
impulse
control,
kleptomania,
pyromania, and intermittent explosive disorder. Finally,
counsel asserts that Bryant's [Pg 8] actions during the
current offenses were bizarre and indicative of someone
with mental health issues.
The State argues in opposition that Bryant was found
competent to stand trial following numerous competency
hearings during which his mental health [**12] issues
were thoroughly discussed and several doctors testified
that Bryant was a malingerer. The State notes that
Bryant's convictions are of the same nature as his two
prior felony convictions, and that the concurrent 65-year
sentences are well within the applicable ranges and are
not the maximum sentences available. The State points
out that because the trial judge observed Bryant during
his multiple competency hearings, at trial, and at
sentencing, he was in the best position to consider
Bryant's age and mental health issues and weigh those
factors against the trauma that Bryant caused the victim
and his prior convictions of the same nature. The State
maintains that the trial judge did not abuse his discretion
and that the sentences imposed are not constitutionally
excessive.
[*707] HN2[ ] A reviewing court imposes a two-prong
test to determine whether a sentence is excessive. First,
the record must show that the trial court took
cognizance of the criteria set forth in La. C. Cr. P. art.
894.1. The trial court is not required to list every
aggravating or mitigating circumstance so long as the

record reflects adequate consideration of the guidelines
of the article. State v. Smith, 433 So. 2d 688 (La. 1983);
State v. Boehm, 51,229 (La. App. 2 Cir. 4/5/17), 217 So.
3d 596. The court shall state for the record the
considerations [**13] taken into account and the factual
basis therefor in imposing sentence. La. C. Cr. P. art.
894.1(C). The articulation of the factual basis for the
sentence is the goal of La. C. Cr. P. art. 894.1, not rigid
or mechanical compliance with its provisions. Where the
record clearly shows [Pg 9] an adequate factual basis
for the sentence, resentencing is unnecessary even
where there has not been full compliance with La. C.
Cr. P. art. 894.1. State v. Fontenot, 49,835 (La. App. 2
Cir. 5/27/15), 166 So. 3d 1215.
HN3[ ] The defendant's personal history (age, family
ties, marital status, health, employment record), prior
criminal record, seriousness of the offense, and the
likelihood of rehabilitation are important elements to
consider. State v. Jones, 398 So. 2d 1049 (La. 1981);
State v. Boehm, supra. There is no requirement that
specific matters be given any particular weight at
sentencing. State v. Boehm, supra.
Second, HN4[ ] a sentence violates La. Const. art. I, §
20, if it is grossly out of proportion to the seriousness of
the offense or nothing more than a purposeless and
needless infliction of pain and suffering. State v.
Dorthey, 623 So. 2d 1276 (La. 1993). A sentence is
considered grossly disproportionate if, when the crime
and punishment are viewed in light of the harm done to
society, it shocks the sense of justice. State v. Weaver,
01-0467 (La. 1/15/02), 805 So. 2d 166.
HN5[ ] A trial court has wide discretion to sentence
within the statutory limits. Absent a showing of manifest
abuse of that discretion, a sentence will not be set aside
as excessive. [**14] On review, an appellate court does
not determine whether another sentence may have
been more appropriate, but whether the trial court
abused its discretion. State v. Boehm, supra.
At resentencing, the trial judge reviewed the applicable
sentencing ranges for both convictions under the
habitual offender law as written at the time the instant
offenses were committed on August 22, 2014. HN6[ ]
For attempted aggravated rape, the sentencing range
was 10 to 50 years at hard labor, without benefit of
probation, parole, or suspension of sentence. La. [Pg
10] R.S. 14:42; 14:27. As a second-felony habitual
offender under La. R.S. 15:529.1(A)(2)(a), Bryant faced
a potential sentence of two-thirds to three times the
longest sentence, or 33 to 150 years, because he had a

Tori Simkovic

Appendix B, 14a

Page 7 of 7
293 So. 3d 701, *707; 2020 La. App. LEXIS 361, **14
prior conviction for sexual assault.
HN7[ ] For armed robbery, the sentencing range was
10 to 99 years at hard labor, without benefit of parole,
probation, or suspension of sentence. La. R.S. 14:64.
Under La. R.S. 15:529.1(A)(1), Bryant faced a potential
sentence of one-half the longest sentence to two times
the longest sentence, or 49.5 to 198 years.
At resentencing, the trial judge stated that he had
previously considered all of the relevant factors under
La. C. Cr. P. art. 894.1. In particular, he considered
Bryant's
criminal
history
and
mental
health
issues, [**15] which the trial judge was familiar with
from having considered Bryant's competency to stand
trial. The trial judge noted that Bryant had a prior
[*708] conviction for sexual assault of a minor and now
had a conviction for sexual assault of an adult, and that
his prior conviction for robbery had elevated to a new
conviction for armed robbery. The trial judge found that
the similarity and nature of the instant offenses as
compared to the prior offenses indicated that a serious
sentence was both appropriate and necessary. The trial
judge also remarked that while Bryant's mental health
problems were a mitigating factor, that factor was
grossly outweighed by the trauma to the victim and
Bryant's criminal history.

and do not shock the sense of justice. The sentences
were absolutely justified. There is no showing that the
trial judge abused his discretion in the sentences
imposed. These sentences are not unconstitutionally
excessive.

CONCLUSION
Bryant's habitual offender sentences are AFFIRMED.

End of Document

The sentences imposed were particularized to Bryant.
Despite having already served considerable time for two
similar crimes, Bryant engaged in serious criminal
activity not long after being released in Texas. The fact
and severity of Bryant's ongoing mental health issues
were thoroughly addressed [Pg 11] in the competency
hearings. Moreover, those mental health issues were
clearly considered by the trial judge when fashioning a
punishment that was well below half the maximum
allowed for each offense [**16] under the habitual
offender statute.
The State argued at resentencing that sentences at the
higher end of the ranges were warranted. Defense
counsel countered that in light of Bryant's mental health
issues, mid-range sentences were more appropriate.
The 65-year sentences imposed fall within the statutory
range, are far from the maximum available sentences of
150 and 198 years, and were ordered to be served
concurrently. Notably, the sentences imposed are
actually less than the mid-range sentences sought by
Bryant's counsel at resentencing.
Under the facts and circumstances of this case, and in
consideration of the harm done to society, the
sentences imposed on Bryant are not disproportionate
Tori Simkovic

Appendix B, 15a

Neutral
As of: January 20, 2021 1:51 AM Z

State v. Bryant
Supreme Court of Louisiana
November 10, 2020, Decided
No.2020-KO-00611
Reporter
2020 La. LEXIS 2714 *; 2020-00611 (La. 11/10/20);

STATE OF LOUISIANA VS. JOSEPH M. BRYANT

Notice: THIS DECISION IS NOT FINAL UNTIL
EXPIRATION OF THE FOURTEEN DAY REHEARING
PERIOD.
DECISION WITHOUT PUBLISHED OPINION

Prior History: IN RE: Joseph Bryant - Applicant
Defendant; Applying For Writ Of Certiorari, Parish of
Caddo, 1st Judicial District Court Number(s) 327055,
Court of Appeal, Second Circuit [*1] , Number(s)
53,321-KA.

State v. Bryant, 293 So. 3d 701, 2020 La. App. LEXIS
361, 2020 WL 1036292 (La.App. 2 Cir., Mar. 4, 2020)

Judges: Bernette J. Johnson, John L. Weimer,
Jefferson D. Hughes, III, Scott J. Crichton, James T.
Genovese, William J. Crain, James H. Boddie.

Opinion
Writ application denied.

End of Document

Appendix C, 16a
Tori Simkovic

1/23/2020

5:10:42PM

CLERK OF COURT - CADDO PARISH

MIKE SPENCE
CLERK OF COURT

DIANNE DOUGHTY
CRIMINAL ADMINISTRATOR

501 Texas, Room 103
Shreveport, LA 71101-5405

327055

STATE OF LOUISIANA VS BRYANT, JOSEPH M

11/08/2017

1) ATTEMPTED AGGRAVATED RAPE
2) ARMED ROBBERY
THIS CASE BEING ON TRIAL, THE ACCUSED BEING PRESENT WITH COUNSEL, MARY
HARRIED AND CARLOS PRUDHOMME. ASSISTANT DISTRICT ATTORNEYS MEKISHA
SMITH CREAL AND MONIQUE METOYER PRESENT, THE JURY BEING IN THE JURY BOX
AND THE JUDGE PRESIDING, TRIAL RESUMED. THE COURT ORDERED THE JURY
SWORN. THE BILL OF INFORMATION AND THE DEFENDANT'S PLEA ON ARRAIGNMENT
WERE READ ALOUD BY THE CLERK. THE ASSISTANT DISTRICT ATTORNEY MADE HER
OPENING STATEMENT. EVIDENCE BY THE STATE WAS ADDUCED, CLOSED.
DEFENDANT'S EVIDENCE ADDUCED AND CLOSED AND ALL EVIDENCE WAS
CONCLUDED. CASE WAS ARGUED BY THE ASSISTANT DISTRICT ATTORNEY AND
DEFENSE COUNSEL, THE DEFENDANT BEING PRESENT. WHEREUPON, THE JURY WAS
CHARGED BY THE COURT. THE COURT FILED THE WRITTEN CHARGE TO THE JURY. THE
JURY RETIRED TO THE JURY ROOM AT 4:42 O'CLOCK P.M. IN CHARGE OF THE SHERIFF
TO CONSIDER THEIR VERDICT. THE JURY RETURNED INTO OPEN COURT AT 6:50 PM
O'CLOCK P.M. AND WAS ASKED BY THE COURT IF THEY HAD REACHED A VERDICT. THE
FOREMAN OF THE JURY ANSWERED IN THE AFFIRMATIVE. THE JURY THROUGH THEIR
FOREMAN, UPON THEIR OATH, DOES SAY, AS TO COUNT #1: "WE THE JURY FIND THE
DEFENDANT, JOSEPH BRYANT, GUILTY AS CHARGED OF ATTEMPTED AGGRAVATED
RAPE.(DATED) NOVEMBER 8, 2017 (SIGNED) CATHY MCMULLEN, FOREMAN"; AND AS TO
COUNT 2: "WE THE JURY FIND THE DEFENDANT, JOSEPH M. BRYANT, GUILTY AS
CHARGED OF ARMED ROBBERY (SIGNED) CATHY MCMULLEN (DATED) NOVEMBER 8,
2017." THE DEFENDANT WAS PRESENT WITH COUNSEL WHEN THE JURY RETURNED
AND WHEN THE VERDICT WAS READ ALOUD BY THE CLERK. UPON, REQUEST OF
DEFENSE COUNSEL, THE COURT ORDERED JURY POLLED AS TO BOTH COUNTS BOTH
AND TEN OUT OF TWELVE (12) JURORS ANSWERED IN THE AFFIRMATIVE, THAT THIS
WAS THEIR VERDICT AS TO EACH COUNT. THE COURT ORDERED THE VERDICT
RECORDED AND THE JURY DISCHARGED. THE COURT ORDERED THE DEFENDANT
REMANDED TO THE CUSTODY OF THE SHERIFF TO AWAIT SENTENCING. THE COURT
ORDERED A PRE-SENTENCE INVESTIGATION REPORT THROUGH PROBATION AND
PAROLE. CASE WAS CONTINUED UNTIL DECEMBER 13, 2017 FOR FURTHER
PROCEEDINGS. THE DEFENDANT WAS PRESENT WITH COUNSEL DURING ALL
PROCEEDINGS THIS DAY. (JUDGE BRADY D O'CALLAGHAN) D. OLIVER

Appendix D, 17a

